No.

IN THE SUPREME COURT OF THE UNITED STATES
TAMARAN EDWARD BONTEMPS,
Petitioner,

v.

UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

HEATHER E. WILLIAMS
Federal Defender
ANN C, M°CLINTOCK
Assistant Federal Defender
Counsel of Record
801 I Street, 3rd Floor
Sacramento, California 95814
Telephone: (916) 498-5700
Attorneys for Petitioner
TAMARAN EDWARD BONTEMPS
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Title 18 U.S.C. § 3006A(d)(7) and Rule 39 of the Rules of the
Supreme Court of the United States, Petitioner TAMARAN EDWARD BONTEMPS,
moves for leave to file the accompanying Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit without prepayment of fees or costs and
to proceed in forma pauperis.

Petitioner was represented by the Federal Defender's Office for the Eastern
District of California in the District Court and in the Court of Appeals on an
appointment pursuant to Title 18 U.S.C. § 3006(A).

DATED: May 23, 2021 Respectfully submitted,

HEATHER E. WILLIAMS
Federal Defender

/)

Lol Wh lA4.
ANN C. M°CLINTOCK
Assistant Federal Defender
801 I Street, 3rd Floor
Sacramento, CA 95814
(916) 498-5700
ann_mcclintock@fd.org
Attorneys for Petitioner
